   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106




October 17, 2011

Report Number: A-07-11-01095

Ms. Susan E. Birch
Executive Director
Colorado Department of Health Care Policy and Financing
1570 Grant Street
Denver, CO 80203

Dear Ms. Birch:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Prescribed Drug Costs in the Colorado Medicaid
Family Planning Program. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Chris Bresette, Audit Manager, at (816) 426-3591 or through email at
Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-11-01095 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Susan E. Birch

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




         REVIEW OF
PRESCRIBED DRUG COSTS IN THE
 COLORADO MEDICAID FAMILY
     PLANNING PROGRAM




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-07-11-01095
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (the State agency) is responsible for administering the Medicaid program.

The amount that the Federal Government reimburses to State Medicaid agencies, known as
Federal financial participation (FFP) or Federal share, is determined by the Federal medical
assistance percentage (FMAP), which varies based on a State’s relative per capita income. The
State agency’s FMAP rates ranged from 50.00 percent to 61.59 percent for claims paid during
Federal fiscal years (FY) 2006 through 2009 (October 1, 2005, through September 30, 2009).

Federal requirements also allow for various specified services to be reimbursed at higher FFP
rates. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2) authorize
Federal reimbursement at an enhanced 90-percent rate (90-percent rate) for family planning
services. Section 4270 of the CMS State Medicaid Manual describes family planning services as
those that prevent or delay pregnancy or otherwise control family size.

The State agency receives Federal reimbursement at the 90-percent rate for certain prescribed
drugs associated with family planning services. Most of these prescribed drugs (family planning
prescribed drugs) are used for birth control or for the stimulation of ovulation in infertile women.
In Colorado, the State agency considered oral, topical, and implantable contraceptives as family
planning prescribed drugs. During FYs 2006 through 2009, the State agency had claims for
family planning prescribed drugs of $8,957,020 ($8,061,318 Federal share).

OBJECTIVE

Our objective was to determine whether the State agency claimed family planning prescribed
drug costs during FYs 2006 through 2009 pursuant to Federal and State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim family planning prescribed drug costs during FYs 2006
through 2009 pursuant to Federal and State requirements. Of the 100 claims in our sample, 73
qualified as family planning services and were allowable for reimbursement at the 90-percent
rate. However, the 27 remaining claims in our sample totaling $1,172 ($1,055 Federal share)
contained errors. Specifically, 26 of the claims were not allowable for Federal reimbursement at
the 90-percent rate (but were allowable for Federal reimbursement at FMAP rates) because the



                                                 i
contraceptive drugs in question were not prescribed for family planning purposes. The other
claim was not allowable for any Federal reimbursement pursuant to Federal and State
requirements because it lacked supporting documentation.

Based on the results of our sample, we estimated that the State agency received $617,999 in
unallowable Federal reimbursement. These errors occurred primarily because the State agency
lacked internal controls that would accurately identify which prescribed drug claims were
allowable for Federal reimbursement at the 90-percent rate. Specifically, the State agency’s
internal controls automatically classified contraceptive drugs as family planning services even if
the medication may have been prescribed for another (non-family planning) purpose.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $617,999 to the Federal Government;

   •   determine and refund the Federal share of any additional amounts related to family
       planning prescribed drugs that the State agency improperly claimed subsequent to our
       audit period; and

   •   strengthen internal controls to ensure that prescribed drug costs submitted for Federal
       reimbursement appropriately identify claims that are eligible for reimbursement at the
       90-percent rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with each of our
three recommendations. The State agency concurred with our recommendations with regard to
the one claim that lacked appropriate supporting documentation and described corrective actions
that it planned to implement.

However, the State agency did not concur with the majority of our findings and
recommendations. Specifically, the State agency disagreed that Federal reimbursement for drugs
prescribed for non-family planning purposes should be limited to FMAP rates. The State agency
said that individuals receive family planning benefits when contraceptive drugs are prescribed
for another (non-family planning) purpose. Further, the State agency stated that the only way to
ensure that contraceptive drugs were prescribed only for family planning purposes would require
implementing a methodology that would place an undue, disproportionate burden on prescribers
of contraception and pharmacies.

The State agency also stated that we misinterpreted Federal requirements regarding State
Medicaid agency claims for family planning prescribed drug costs and that our findings were
therefore not consistent with other issued Office of Inspector General (OIG) audits.

The State agency’s comments appear in their entirety as Appendix C.

                                                ii
OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s written comments caused us to change our findings or our
recommendations. We correctly applied Federal requirements to each of the reviewed claims.

Furthermore, the State agency’s statement, that our interpretation of Federal requirements during
this audit is inconsistent with other issued OIG audits, is inaccurate. For this audit, our
methodology was different than the methodology used in previous audits. Specifically, we
performed an additional audit step that was not performed in other OIG audits.




                                               iii
                                                 TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            Colorado Medicaid Program ............................................................................ 1
            Medicaid Coverage of Family Planning Prescribed Drugs.............................. 1
            Family Planning Prescribed Drug Claims in Colorado.................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 2
             Methodology .................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................................................... 3

      UNALLOWABLE FAMILY PLANNING SERVICES ................................................. 4
            Prescribed Drugs Unrelated To Family Planning ............................................ 4
            Lack of Documentation.................................................................................... 5

      INADEQUATE CONTROLS .......................................................................................... 5

      UNALLOWABLE FAMILY PLANNING CLAIMS ..................................................... 5

      RECOMMENDATIONS ................................................................................................. 5

      STATE AGENCY COMMENTS .................................................................................... 5

      OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                   iv
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal
and State Governments jointly fund and administer the Medicaid program. At the Federal
level, the Centers for Medicare & Medicaid Services (CMS) administers the program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid
program, it must comply with applicable Federal requirements.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), reports actual Medicaid expenditures for each quarter
and is used by CMS to reimburse States for the Federal share of Medicaid expenditures. The
amounts reported on the CMS-64 report and its attachments must be actual expenditures with
supporting documentation.

Colorado Medicaid Program

In Colorado, the Department of Health Care Policy and Financing (the State agency) is
responsible for administering the Medicaid program. The amount that the Federal
Government reimburses to State Medicaid agencies, known as Federal financial participation
(FFP) or Federal share, is determined by the Federal medical assistance percentage (FMAP),
which varies based on a State’s relative per capita income. The State agency’s FMAP rates
ranged from 50.00 percent to 61.59 percent for claims paid during Federal fiscal years (FY)
2006 through 2009 (October 1, 2005, through September 30, 2009).

Medicaid Coverage of Family Planning Prescribed Drugs

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and
supplies to individuals of childbearing age (including minors who can be considered to be
sexually active) who are eligible under the State plan and who desire such services and
supplies. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2)
authorize Federal reimbursement at an enhanced 90-percent rate (90-percent rate) for family
planning services.

Section 4270 of the CMS State Medicaid Manual (the manual) describes family planning
services as those that prevent or delay pregnancy or otherwise control family size. Family
planning services include, but are not limited to, the following items and services: counseling
services and patient education; examination and treatment by medical professionals pursuant
to States’ requirements; devices to prevent conception; sterilization procedures; and infertility
services, including sterilization reversals.



                                                 1
The State agency receives Federal reimbursement at the 90-percent rate for certain prescribed
drugs associated with family planning services. Most of these prescribed drugs (family
planning prescribed drugs) are used for birth control or for the stimulation of ovulation in
infertile women.

CMS issued Financial Management Review Guide Number 20 (the guide) to the State agency
via Medicaid State Operations Letter 91-9. The guide allows the State agency to use a variety
of coding systems and codes for medications for which the State agency reimburses providers
under Medicaid. Most of the medications covered as family planning prescribed drugs are
used for birth control or for the stimulation of ovulation in infertile women. Other
medications can be classified as family planning prescribed drugs if they are used incident to,
or as part of, procedures performed for family planning purposes, such as pain medications
following a sterilization procedure. However, the guide does not specifically list what
pharmaceutical codes may be reimbursed at the 90-percent rate.

Family Planning Prescribed Drug Claims in Colorado

To classify claims that include family planning services, the State agency uses indicators such
as procedure codes, diagnosis codes, surgical procedure codes, and modifiers. For family
planning prescribed drugs, the State agency classified medications according to national drug
codes. Specifically, the State agency considered oral, topical, and implantable contraceptives
as family planning prescribed drugs.

During FYs 2006 through 2009, the State agency had claims for family planning prescription
drugs of $8,957,020 ($8,061,318 Federal share). During this same period the State agency
received Federal reimbursement totaling $26,699,896 for all other family planning services,
which we are separately reviewing.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed family planning prescribed
drug costs during FYs 2006 through 2009 pursuant to Federal and State requirements.

Scope

We reviewed $8,957,020 ($8,061,318 Federal share) that the State agency claimed for family
planning prescribed drugs related to family planning services in Colorado during FYs 2006
through 2009. 1 We did not review the overall internal control structure of the State agency or
the Medicaid program. Rather, we reviewed only the internal controls that pertained directly
to our objective.

We performed fieldwork at the State agency in Denver, Colorado, from March through
November 2010.
1
    The amount reviewed included $282,563 which was claimed for the quarter ending December 31, 2009.

                                                        2
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, Federal and State regulations, CMS guidance, and
       the State plan;

   •   held discussions with CMS officials to gain an understanding of CMS requirements
       and guidance furnished to State agency officials concerning Medicaid family planning
       claims;

   •   held discussions with State agency officials to gain an understanding of how the State
       agency claimed Medicaid reimbursement for family planning services, including
       family planning prescribed drugs;

   •   reconciled current-period and prior-period family planning claims reported on the
       CMS-64 reports back to the State agency’s supporting documentation;

   •   selected a simple random sample of 100 family planning prescribed drug claims (each
       claim had one prescribed drug);

   •   obtained and reviewed the supporting documentation for each sampled claim to
       determine the allowability of the claim for Federal reimbursement;

   •   requested, for claims in which a family planning purpose was not explicitly indicated
       in the supporting documentation, that prescribing physicians state whether the drug
       associated with that claim was prescribed for a family planning purpose (as defined in
       the manual); and

   •   provided the results of our review to State agency officials on June 2, 2011.

Appendixes A and B contain the details of our sampling and projection methodologies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                        FINDINGS AND RECOMMENDATIONS

The State agency did not always claim family planning prescribed drug costs during FYs 2006
through 2009 pursuant to Federal and State requirements. Of the 100 claims in our sample, 73
qualified as family planning services and were allowable for reimbursement at the 90-percent
rate. However, the 27 remaining claims in our sample totaling $1,172 ($1,055 Federal share)
contained errors. Specifically, 26 of the claims were not allowable for Federal reimbursement

                                                3
at the 90-percent rate (but were allowable for Federal reimbursement at FMAP rates) because
the contraceptive drugs in question were not prescribed for family planning purposes. The
other claim was not allowable for any Federal reimbursement pursuant to Federal and State
requirements because it lacked supporting documentation.

Based on the results of our sample, we estimated that the State agency received $617,999 in
unallowable Federal reimbursement. These errors occurred primarily because the State
agency lacked internal controls that would accurately identify which prescribed drug claims
were allowable for Federal reimbursement at the 90-percent rate. Specifically, the State
agency’s internal controls automatically classified contraceptive drugs as family planning
services even if the medication may have been prescribed for another (non-family planning)
purpose.

UNALLOWABLE FAMILY PLANNING SERVICES

Prescribed Drugs Unrelated to Family Planning

Section 4270 of the manual defines family planning services as those that prevent or delay
pregnancy or otherwise control family size. Specifically, section 4270(B)(2) of the manual
states: “Only items and procedures clearly provided or performed for family planning
purposes may be [claimed] at the 90 percent rate.” (Emphasis added.)

For family planning services, the U.S. Department of Health and Human Services
Departmental Appeals Board (the DAB) has provided additional guidance regarding Federal
reimbursement at the 90-percent rate. The DAB has ruled that “… the State [agency] bears
the burden of justifying claims for enhanced rates…. It is not enough that the claims could
possibly relate to family planning, or that the diagnoses do not preclude such a determination.
Rather, the State [agency] must affirmatively document that the services were sought for
family planning reasons.” 2

Contrary to the Federal requirement and administrative law ruling, the State agency
improperly claimed Federal reimbursement at the 90-percent rate for 26 claims. Specifically,
the State agency did not affirmatively document that the prescribed drugs for these 26 claims
were sought for family planning reasons. In fact, the responses that we received from the
prescribing physicians’ offices stated that the drugs associated with these claims were not
prescribed for a family planning purpose at it is defined in the manual. (For some of these
claims, the responses indicated the actual, non-family-planning purpose of the prescription.)
Therefore, the prescribed drug costs related to the 26 claims were not allowable for
reimbursement at the 90-percent rate (but were allowable for Federal reimbursement at FMAP
rates).




2
    New York State Department of Social Services, DAB No. 1364 (1992).

                                                       4
Lack of Documentation

Section 1902(a)(27) of the Act and 42 CFR §§ 431.17(c) and 433.32 require that services
claimed for Medicaid reimbursement be documented. In addition, 10 Code of Colorado
Regulations 2505-10, section 8.040.2, states that records must be maintained for 6 years.
Contrary to these Federal and State requirements, the State agency improperly claimed
Federal reimbursement for drug costs associated with 1 claim, with a March 17, 2006, date of
service, that was not allowable for reimbursement because the provider could not provide
documentation to support the services billed. Specifically, neither the prescribing physician
nor the pharmacy that filled the prescription had documentation to support the prescribed
drug. Therefore, this claim was not allowable for Federal reimbursement.

INADEQUATE CONTROLS

These errors occurred primarily because the State agency lacked internal controls that would
accurately identify which prescribed drug claims were allowable for Federal reimbursement at
the 90-percent rate. Specifically, the State agency’s internal controls automatically classified
contraceptive drugs as family planning services even if the medication may have been
prescribed for another (non-family planning) purpose.

UNALLOWABLE FAMILY PLANNING CLAIMS

Of the 100 prescribed drug claims in our sample, 27 claims totaling $1,172 ($1,055 Federal
share) contained errors. Based on the results of our sample, we estimated that the State
agency received $617,999 in unallowable Federal reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $617,999 to the Federal Government;

   •   determine and refund the Federal share of any additional amounts related to family
       planning prescribed drugs that the State agency improperly claimed subsequent to our
       audit period; and

   •   strengthen internal controls to ensure that prescribed drug costs submitted for Federal
       reimbursement appropriately identify claims that are eligible for reimbursement at the
       90-percent rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with each of our
three recommendations. The State agency concurred with our recommendations with regard
to the one claim that lacked appropriate supporting documentation and described corrective
actions that it planned to implement.

                                                5
However, the State agency did not concur with the majority of our findings and
recommendations. Specifically, the State agency disagreed that Federal reimbursement for
drugs prescribed for non-family planning purposes should be limited to FMAP rates. The
State agency stated that the only way to ensure that contraceptive drugs were prescribed only
for family planning purposes would be to require that (1) prescribing physicians include
diagnosis codes on their prescriptions and (2) pharmacies include those diagnosis codes on
claims submitted to the State agency. The State agency contended that this requirement “… is
not consistent with current medical practice and places an undue, disproportionate burden on
prescribers of contraception and pharmacies alike….”

Further, the State agency said that it was entitled to the 90-percent rate for all contraceptive
drugs because they “… could prevent a pregnancy despite the client’s medical records not
accurately reflecting the client’s … reasons for taking a contraceptive drug.”

The State agency also stated that we misinterpreted Federal requirements regarding State
Medicaid agency claims for family planning prescribed drug costs and that our findings were
therefore not consistent with other issued Office of Inspector General (OIG) audits.
Specifically, the State agency said that Federal requirements permit it to establish a system by
which all contraceptive drugs could be claimed at the 90-percent rate, which the State agency
believes is consistent with other States’ Medicaid policies. The State agency also said that in
the majority of the other OIG reports of other State agencies, “OIG found no issue with states
claiming enhanced FFP on all claims for prescriptions with drugs that had been appropriately
assigned to the contraceptive therapeutic classification code.” The State agency stated that
“[a]ll of the 100 sampled claims in Colorado’s audit contained the appropriate therapeutic
classification codes … [to be classified as a contraceptive drug].”

The State agency’s comments appear in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s written comments caused us to change our findings or our
recommendations. We correctly applied Federal requirements to each of the reviewed claims.

Regarding the 26 claims for which contraceptive drugs were not prescribed for family
planning purposes, we received statements from the prescribing physicians’ offices that
confirmed that the contraceptive drugs were not prescribed for a family planning purpose.
Moreover, the prescribing physicians indicated that some of the recipients were either
pregnant or had previously received sterilization procedures. Therefore, we maintain that
these claims were not allowable for Federal reimbursement at the 90-percent rate (but were
allowable for Federal reimbursement at FMAP rates).

Accordingly, we believe we have correctly interpreted and consistently applied the Federal
requirements, including the U.S. Department of Health and Human Services Departmental
Appeals Board ruling which states that “… the State [agency] bears the burden of justifying
claims for enhanced rates…. It is not enough that the claims could possibly relate to family



                                                  6
planning, or that the diagnoses do not preclude such a determination. Rather, the State
[agency] must affirmatively document that the services were sought for family planning
reasons.”

Furthermore, the State agency’s statement, that our interpretation of Federal requirements
during this audit is inconsistent with other issued OIG audits, is inaccurate. In other audits,
the OIG designed its tests to determine whether the other State agencies had systems in place
to correctly identify contraceptive therapeutic classification codes. For this audit, not only did
we verify that the claims contained these required codes, but we also performed an additional
step in that we asked the prescribing physicians whether the prescriptions were actually
intended for family planning purposes. This additional audit step was not performed in other
OIG audits.




                                                 7
APPENDIXES
               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consists of prescribed drug claims for which the Colorado Department of Health
Care Policy and Financing (the State agency) claimed Federal reimbursement at the enhanced
90-percent Federal financial participation rate for family planning services. The State agency
claimed these family planning prescribed drugs for Federal fiscal years (FY) 2006 through 2009
(October 1, 2005, through September 30, 2009).

SAMPLING FRAME

The sampling frame is a database of paid family planning prescribed drug claims consisting of
204,935 records totaling $8,957,020 ($8,061,318 Federal share) for which the State agency
claimed Federal reimbursement during FYs 2006 through 2009. (The amount reviewed included
$282,563, which was claimed for the quarter ending December 31, 2009.) Each claim had one
prescribed drug.

SAMPLE UNIT

The sampling unit is a paid family planning prescribed drug claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the unallowable payments for family planning services.
Because the Federal medical assistance percentage rate varied from quarter to quarter, we made
separate estimations for the total unallowable costs and for the Federal share of those
unallowable costs.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                    SAMPLE RESULTS

                                                     Number of     Amount of
                           Sample       Value of    Claims With   Unallowable
Frame       Frame Value     Size        Sample      Unallowable     Federal
 Size                                                 Federal    Reimbursement
                                                   Reimbursement
204,935      $8,061,318      100        $4,146           27          $455

          ESTIMATES OF UNALLOWABLE FEDERAL REIMBURSEMENT
               (Limits Calculated for a 90-Percent Confidence Interval)

                                             Total Estimated
                                            Unallowable Federal
                                              Reimbursement
                   Point estimate              $     931,934
                   Lower limit                 $     617,999
                   Upper limit                 $   1,245,870
                                                                                                                                                      Page 1 of 4



                 APPENDIX C: STATE AGENCY COMMENTS 




                  COLORADO DEPARTMENT OF HEALllI CARE POLICY & FINANCING
                  1570 Grant SIJeet. Denver, co 80203-1818 - (303) 866-2993- (303) 866-+111 Fax_ (303) 866-3883 TTY
                  .loIIn W.   ~.     GavtrncIr •   susan E. IIIn:I1 MBA, 8SN, lIN, I!JecuUve DIn!ctor



August I, 2011


Patrick J. Cogley, Regional Inspector General for Audit Services
Office of the Inspector General
Office of Audit Services, Region VII
601 E.   12th   St., Room 0429
Kansas City. MO 64106


Mr. Cogley:

Please see the attached document that contains the Department of Health Care Policy and
Financing's submission ofresponses to the draft report entitled Review ofPrescribed Drug Costs
in the Colorado Medicaid Family Planning Program (Report Number A-07-ll..()1095).

If you have any questions or comments, please contact me at 303·866-6575 or
Idm.nguyen@state.co.us.

Sincerely:




Kim Nguyen
Audit Tracker and Analyst, Audits and Compliance Division
Department of Health Care Policy and Financing




"Tho mltolon vi the ~ 01 Heo/Ih~.. roIIcy" finoncintlo 10...,..... _            to C1IIHIftctlvo, quoJlty ............. ",A'keI lute...........   

                                                         coiorlClo....1h<Pf
                                                                                                     Page 2of4




                   Department of Health Care Policy and Financing's 

                                Initial Response to the 

                       Department of Health & Human Services 

                              Office ofInspector General 

    Review ofPrescribed Drug Costs in the Colorado Medicaid Family Planning Program
                            Control Number A-07-11-01095 

                                      August 20.1 1 



Recommendation #1:

We recommend that the State Agency:

       Refund 5617,999 to the Federal Government.

The Department ofHealth Care Policy and Financing's Response to Recommendation #1:

Partially concur.

The Department disagrees with the Office ofthe Inspector General's (OlG's) recommendation
that the majority ofthe estimated $617,999 be returned to thefederal government because the
pharmaceuticals on 26 ofthe 100 sampled claims may have been prescribedfor purposes other
than family planning. The Department asserts that the only way to ensure thaI claims for
pharmaceuticals in the contraceptive therapeutic classification are only claimed allhe enhanced
match rate when prescribed specifically for the purposes offamily planning would be to require
pharmacies to include a diagnosis code on the claim. Pharmacies would be unable to do this
unless the prescriber included the diagnosis code on Ihe prescription. .Requiring the diagnosis
code on the prescription is not consistent with current medical practice and places an undue,
disproportionate burden on prescribers ofcontraception and pharmacies alike and unfairly
segregaJes a cerlain class ofmedication 10 be processed dijforently. Most importantly, it could
impede access since, while family planning services, supplies, and pharmaceuticals are
copaymenl-exempf, other pharmaceuticals are nOI. Iflhe Department were to extend its current
copayment requirement for non:family planning pharmaceuticals to inclllde famUy planning
pharmaceuticals for non-family planning diagnoses, a client may be deterred from filling her
prescription and an unintended pregnancy could result.

Second, the Department wishes to address the issue ofthe stigma that some women associate
with discussing and requesting contraception. It is not uncommon for individuals to withhold
sensitive and deeply personal information from health care providers, especially regarding
sexual activity. Some women may feel more comfortable requesting contraceptives to manage
dysmenorrhea or menorrhagia rather than for birth control. Further, at the client's request,
providers may document a non:family pJanningpurpose as Ihe primary reasonfor the
prescription in order to allay fears a client may have regarding privacy. Also, in the majority of
Ihe 26 claims in question, the clinical records do not indicate rhat these clients were unable to
conceive, so while a client may request contraception for another reason, il still could prevent a
pregnancy despite the client's medical records not accurately reflecting the client's sexual

                                           Page Ion
                                                                                                     Page 3 of 4




activity and/or reasons for taking a contraceptive drug. Finally, Section 4270 ofthe State
Medicaid Manual leaves it to states to establish a way to identify family planning services and
sllppliesfor the enhanced match. Therefore. the Department maintains that aJ! pharmaceuticals
in the contraceptive therapeutic class should be eligible for the enhanced family planning
matching rate.

Lastly, The Department believes that DIG is not consistent across state audits in its
interpretation and application ofthe guidance in the Centers for Medicare and Medicaid
Services (CMS,) Financial Management Review Guide #20 regarding states' claiming of
enhancedfoderaljinancial participation (FFP)for family planning services and supplies. Nor,
the Department believes. is DIG consistent across state audits in its interpretation and
application ofSection 4270 ofthe State Medicaid Manual or the cited 1992 Departmental
Appeals Board administrative law ruling.

 During the course ofthe audit, the Department explained to DIG that Colorado's enhanced
 claiming for family planning pharmacy claims was governed by therapeutic classification code.
It appears that many other states use this methodology for claiming the enhancedfamily
planning match on pharmacy claims. In other audits conducted by DIG ofstates' enhanced
family planning pharmacy claiming. the Department found that in only one ofthese audits were
the specific prescription diagnoses questioned In the majority ofthese audits. DIGfound no
 issue with states claiming enhanced FFP on all claims for prescriptions with drugs that had been
 appropriately assigned to the contraceptive therapeutic classification code. Specifically, in one
 audit report releasedfive months ago, OIG states, "We reviewed [part ofthe fodera I share] of
 claims for family planning services and supplies that did not contain ... approved therapeutic
 classification codes. We did not review the rel1Ulining Uederal share} because these claims
 contained the appropriate••• therapeutic classijreatwn codes, " [Emphasis added). All ofthe
 J00 sampled claims in Colorado's audit contained the appropriate therapeutic classification
 codes and pharmaceuticals that were appropriately assigned to those therapeutic classification
 codes. so the Department again disagrees with DIG's recommendation to return the enhanced
 FFP for a quarter ofits family planning pharmacy claims.

The Department partially concurs with the recommendation. however, given the finding that one
ofthe 100 sampled pharmacy claims was not supported by clinical documentation. For this
claim, DIG found that neither Ihe prescribing physician nor the pharmacy thaIjilled the
prescription had documentation to support that the drug had been prescribed at a/I. The
Depamnent concurs that this claim was therefore not eligible for FFP.

Recommendation #2:

We recommend that the State Agency:

       Determine and refund tbe Federal share of any additional amounts related to family
       planning prescribed drugs that the State agency improperly claimed subsequent to
       our audit period.

The Department ofHealth Care Policy and Financing's Response to Recommendation #2:

                                           Page20fJ
                                                                                                  Page 4 of 4




Partially Concur.

 To the extent that the Department may have claimed FFP subsequent to the audit periodfor
family planning pharmacy claims for which neither the pharmacy nor the prescriber can
produce supporting documentation that the pharmaceutical was prescribed at all, the
Department concurs that such FFP should be returned

Recommendation #3:

We recommend that the State Ageney:

       Strengthen internal controls to ensure tbat prescribed drug costs submitted for
       Federal reimbursement appropriately identify claims that are eligible for
       reimbursement at the 90-percent rate.

The Department ofHealth Care Policy and Financing's Response to Recommendillwn #3:

Partially concur.

 The Department believes that its internal controls for appropriate claiming ofenhanced match
for family planning pharmaceuticals are adequate and exceed that ofother stales. As noted
above. 100 percent ofsampled claims included the appropriate therapeutic classification codes
and pharmaceuticals that were appropriately assigned to those therapeutic classification codes
as opposed to several other states. As discussed in its response to Recommendation #1. the
 Department asserts that the only way to ensure that claims for pharmaceuticals in the
 contraceptive therapeutic classification are only claimed at the enhanced match rate when
prescribed specifically for the purposes offamily planning would be to require pharmacies to
 include a diagnosis code on the claim. Pharmacies would not be able to do this unless the
prescriber included Ihe.diagnosis code on the prescription. Requiring the diagnosis code on the
prescription is nat consistent with current medical practice and places an undue.
 disproportionate burden on prescribers ofcontraception and pharmacies alike.

With regard to the one claim that lacked appropriate documentation that the pharmaceutical
was prescribed at all, the Department will engage in broad-based prOVider education efforts to
ensure thai prescribers and pharmacies are documenting and maintaining client records to
suppart lhe billed services.




                                          Page 3 of3
